           Office of Inspector General




March 2, 2005

LYNN MALCOM
VICE PRESIDENT, FINANCE, CONTROLLER

RALPH J. MODEN
SENIOR VICE PRESIDENT, GOVERNMENT RELATIONS

SUBJECT: Audit Report - Fiscal Year 2004 Financial Installation Audit – Stamp
         Distribution Offices (Report Number FF-AR-05-074)

This report presents the results of our financial installation audit of 15 statistically
selected stamp distribution offices for fiscal year 2004 (Project Number
04XD004FF000). We conducted this audit in support of the audit of the Postal Service
financial statements.

Based on the items we reviewed, financial transactions were reasonably and fairly
presented in the accounting records, and, generally, the internal controls we examined
were in place and effective. However, stamp accountability procedures were not always
followed, and controls over stamp stock destruction needed strengthening.

We recommended management reinforce the importance of limiting stamp stock
destruction committee term lengths and appointing an observer for committee activities.

Management agreed with our recommendation and took actions addressing the issues
in this report. Management’s comments and our evaluation of these comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, or need additional information, please contact
Linda Libician-Welch, Director, Field Operations, West, or me at (703) 248-2300.

(John M. Seeba for)

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments
   1735 N Lynn St.
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
cc: Anita J. Bizzotto
    William P. Galligan
    David E. Failor
    Gladys E. Zamora
    Steven R. Phelps
Fiscal Year 2004 Financial Installation Audit –                 FF-AR-05-074
 Stamp Distribution Offices



                                      TABLE OF CONTENTS

 Executive Summary                                                    i

 Part I

 Introduction                                                         1

     Background                                                       1
     Objectives, Scope, and Methodology                               1
     Prior Audit Coverage                                             2

 Part II

 Audit Results                                                        3

     Stamp Accountability Procedures Were Not Always Followed         3

     Controls Over Stock Destruction Needed Strengthening             5
     Recommendation                                                   6
     Management’s Comments                                            6
     Evaluation of Management’s Comments                              6

 Appendix A. Sites Visited                                            7
 Appendix B. Management’s Comments                                    8
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-074
 Stamp Distribution Offices


                                     EXECUTIVE SUMMARY
 Introduction                     This report summarizes the results of our audits of
                                  15 statistically selected stamp distribution offices for fiscal
                                  year 2004. The Postal Reorganization Act of 1970 requires
                                  annual audits of the Postal Service’s financial statements.
                                  We conducted these audits in support of the audit of the
                                  Postal Service financial statements. The audit at each
                                  stamp distribution office was unannounced.

                                  The overall objectives of our audits were to determine
                                  whether financial transactions of field operations were
                                  reasonably and fairly presented in the accounting records
                                  and whether internal controls were in place and effective.

 Results in Brief                 Based on the items we reviewed, financial transactions
                                  were reasonably and fairly presented in the accounting
                                  records, and, generally, the internal controls we examined
                                  were in place and effective. However, stamp accountability
                                  procedures were not always followed, and controls over
                                  stamp stock destruction needed strengthening.

 Summary of                       We recommend management reinforce the importance of
 Recommendations                  limiting the stamp stock destruction committee term lengths
                                  and appointing an observer of committee activities.

                                  We did not make recommendations related to some of the
                                  stamp accountability and stamp stock destruction issues
                                  since we recently made recommendations addressing these
                                  issues in our Fiscal Year 2003 Financial Installation Audit,
                                  Stamp Distribution and District Accounting Offices (Report
                                  Number FF-AR-04-149, dated May 6, 2004). Management
                                  issued a memorandum dated September 15, 2004, to the
                                  Vice Presidents, Area Operations, advising them of the
                                  audit findings and requesting field management enforce
                                  existing policy and procedures.

 Summary of                       Management agreed with our recommendation. A
 Management’s                     memorandum was issued on February 22, 2005, reinforcing
 Comments                         the stamp stock destruction committee policy.
                                  Management’s comments, in their entirety, are included in
                                  Appendix B of this report.




                                                    i
Fiscal Year 2004 Financial Installation Audit –                                  FF-AR-05-074
 Stamp Distribution Offices




 Overall Evaluation of            Management’s actions taken are responsive to our
 Management’s                     recommendation and should address the issues identified in
 Comments                         the finding.




                                                  ii
Fiscal Year 2004 Financial Installation Audit –                                                                 FF-AR-05-074
 Stamp Distribution Offices


                                                 INTRODUCTION
    Background                         Beginning with fiscal year (FY) 2001, the Office of Inspector
                                       General (OIG) began conducting financial audits at financial
                                       installations, consisting of revenue generating units1 and
                                       stamp distribution offices. We conduct these audits in
                                       support of the overall audit of the Postal Service financial
                                       statements.

                                       Stamp distribution offices receive and ship stamps, Postal
                                       Service stationery, philatelic products, and money orders.
                                       They provide stamps and stamp products for all post offices,
                                       branches, and stations within their service area. An
                                       employee of the stamp distribution office also serves on the
                                       stamp stock destruction committee, which performs stamp
                                       destruction services. A district may have more than
                                       one stamp distribution office. The District Marketing
                                       Manager is responsible for the overall operations of the
                                       stamp distribution office. The supervisor of accountable
                                       paper is responsible for the day-to-day management of the
                                       stamp distribution office.

    Objectives, Scope,                 The overall objectives of our audit were to determine
    and Methodology                    whether financial transactions of field operations were
                                       reasonably and fairly presented in the accounting records,
                                       and whether internal controls were in place and effective.

                                       To accomplish our objectives, we conducted fieldwork
                                       during FY 2004. The audits at each stamp distribution office
                                       were unannounced. We statistically selected 15 stamp
                                       distribution offices from a population of 96, for review.
                                       (Appendix A lists the sites we visited). We reviewed
                                       financial transactions and internal controls related to stamp
                                       stock accountability, replenishment, order fulfillment and
                                       dispatch, and destruction. We traced recorded financial
                                       transactions to and from supporting documentation and
                                       assessed the reliability of computerized data by verifying the
                                       computer records to source documents. We evaluated
                                       whether the internal control structure over the financial
                                       reporting and safeguarding of assets was implemented and
                                       functioning as designed. We also interviewed employees
                                       and observed operations at stamp distribution offices.


1
    Includes post offices, contract postal units, self-service postal centers, and business mail entry units.




                                                               1
Fiscal Year 2004 Financial Installation Audit –                                                        FF-AR-05-074
 Stamp Distribution Offices


                                    We conducted this audit from October 2003 through
                                    March 2005 in accordance with generally accepted
                                    government auditing standards and included such tests
                                    of internal controls as were necessary under the
                                    circumstances. We discussed our observations and
                                    conclusions with management officials and included their
                                    comments where appropriate. We issued individual
                                    reports to Postal Service management at each statistically
                                    selected site.

    Prior Audit Coverage            The Postal Inspection Service conducted financial
                                    installation audits prior to FY 2001. We evaluated all
                                    findings reported by the Postal Inspection Service in
                                    individual site reports from FYs 1999 through 2000 and by
                                    the OIG in FYs 2001 through 2003, and we reported the
                                    status of recommendations in the individual site reports to
                                    the applicable District Managers.

                                    In our summary report on stamp distribution offices for
                                    FY 2003,2 we reported management could strengthen its
                                    controls over stamp accountability and stamp stock
                                    destruction committees. Management issued a
                                    memorandum dated September 15, 2004, to the Vice
                                    Presidents, Area Operations, advising them of the audit
                                    findings and requesting field management enforce existing
                                    policy and procedures. Because we completed our
                                    FY 2004 audits before management issued the
                                    September 15, 2004, memorandum, management’s actions
                                    did not impact the stamp distribution offices we audited. As
                                    such, we have not determined if management’s actions
                                    were effective in addressing the issues identified in our
                                    FY 2003 report.




2
 Fiscal Year 2003 Financial Installation Audit, Stamp Distribution and District Accounting Offices (Report
Number FF-AR-04-149, dated May 6, 2004).




                                                          2
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-074
 Stamp Distribution Offices


                                          AUDIT RESULTS
 Stamp Accountability              Stamp distribution offices did not always adhere to the
 Procedures Were Not               Postal Service’s prescribed procedures for stamp
 Always Followed                   accountability at 9 of the 15 stamp distribution offices we
                                   reviewed. Units did not always enter discrepancies into
                                   the Stamp Service System and adequately safeguard
                                   stamp stock. Consequently, there was reduced
                                   assurance the inventory balance in the accounting
                                   records was accurate. Until these controls are
                                   functioning as prescribed, the Postal Service has an
                                   increased risk of loss of assets.

                                   We also noted employees at stamp distribution offices
                                   did not reconcile unit accountability balances to the
                                   Stock Ledger maintained by the St. Louis Information
                                   Technology and Accounting Service Center (IT/ASC).
                                   Postal Service employees at the units did not know how
                                   to reconcile the two balances or why the differences
                                   occurred. Through discussions with the stamp
                                   distribution office and St. Louis IT/ASC management, it
                                   was noted that no procedures were issued to direct or
                                   provide instruction on the reconciliation of the
                                   two inventory systems. This issue will be addressed in
                                   our audit report of the FY 2004 Postal Service Financial
                                   Statements Audit - St. Louis IT/ASC. Consequently, we
                                   are not making a recommendation in this report.

 Discrepancies Not                Personnel at two stamp distribution offices did not record
 Recorded into Stamp              discrepancies in the Stamp Service System as required
 Service System                   by Handbook F-1, Post Office Accounting Procedures,
                                  Section 436.1, November 1996 (updated with Postal
                                  Bulletin revisions through October 30, 2003). The
                                  supervisors at both locations stated they were not trained
                                  on how to make the entries.

 Stamp Stock Not                  At three stamp distribution offices, management did not
 Adequately Secured               adequately secure stamp stock. Handbook F-1,
                                  Section 151, requires all accountable paper to be
                                  controlled. Specifically, we noted:




                                                   3
Fiscal Year 2004 Financial Installation Audit –                                       FF-AR-05-074
 Stamp Distribution Offices



                                       •   At two offices, xxxxxxxxxxxxxxxxxxxxx
                                           xxxxxxxxxxxxxx when the supervisors were
                                           reassigned because they did not believe it was
                                           necessary (repeat finding).

                                       •   One office did not store stamps and blank money
                                           orders xxxxxxxxxxxxxxx making them accessible
                                           to individuals entering the office. Personnel stated
                                           the unit did not have adequate room to store all
                                           accountable items (repeat finding).

                                       •   At one office, three vaults were left open during
                                           business hours. One of the three vaults contained
                                           a refrigerator, microwave, and bottled water
                                           dispenser and was used by employees as a break
                                           room. According to the Acting Supervisor, doors
                                           were usually kept locked, but were left open
                                           because of the OIG audit team’s presence and the
                                           training of a new supervisor (repeat finding).




                                                    4
Fiscal Year 2004 Financial Installation Audit –                                         FF-AR-05-074
 Stamp Distribution Offices




 Controls Over Stamp               At six offices, personnel did not always adhere to Postal
 Stock Destruction                 Service procedures for stamp stock destruction. Without
 Needed Strengthening              adequately forming and maintaining the stock
                                   destruction committee and following stock destruction
                                   procedures, there is an increased risk of error and loss
                                   in destruction. Specifically:

                                       •    At three offices, members remained on the stock
                                            destruction committee for over three years
                                            without authorization. Handbook F-1,
                                            Section 453.3, states that members may serve
                                            longer than three years only with approval from
                                            the Postal Inspection Service. This occurred
                                            because management was unaware of the
                                            three-year limit or did not know the three-year
                                            term had expired.

                                       •   At three offices, the district had not designated a
                                           Manager to observe activities of the committee as
                                           required by Handbook F-1, Section 451.1. This
                                           occurred because district management either
                                           overlooked or was unaware of the requirement.

                                       •   Stock destruction committees in five offices did
                                           not follow the required procedures for the
                                           destruction of stamp stock. Handbook F-1,
                                           Section 453.5, lists the responsibilities of the stock
                                           destruction committee, including preparation of
                                           Postal Service (PS) Form 17, Stock Requisition,
                                           and recording destruction information on a
                                           spreadsheet. For example, committees did not
                                           complete and or sign PS Forms 17 because they
                                           were unaware of the proper procedures. Also,
                                           committees did not record complete destruction
                                           information on a spreadsheet because they were
                                           unaware of the requirement or did not know how
                                           to complete the spreadsheet (repeat finding).




                                                     5
Fiscal Year 2004 Financial Installation Audit –                                      FF-AR-05-074
 Stamp Distribution Offices




 Recommendation                  We recommend the Vice President, Finance, Controller,
                                 and the Senior Vice President, Government Relations:

                                 1. Reinforce the importance of adhering to term lengths
                                    for stamp stock destruction committee members and
                                    having districts appoint observers for the activities of
                                    stock destruction committees.

 Management’s                    Management agreed with the recommendation and issued
 Comments                        a memorandum on February 22, 2005, reinforcing the
                                 stamp stock committee policy.

 Evaluation of                   Management’s comments are responsive to our
 Management’s                    recommendation and actions taken should address the
 Comments                        issues identified in the finding.




                                                   6
Fiscal Year 2004 Financial Installation Audit –                              FF-AR-05-074
 Stamp Distribution Offices



                                APPENDIX A. SITES VISITED

                      Stamp Distribution
                           Offices                            Location
                 xxxxxxxxxx                       xxxxxxxxxx, Indiana
                 xxxxxxx                          xxxxxx, Florida
                 xxxxxxxxxxx                      xxxxx, Georgia
                 xxxxxx                           xxxxxx, Washington
                 xxxxxxxxxxxxx                    xxxxxxxxxxx, Utah
                 xxxxxxxx                         xxxxxxx, Tennessee
                 xxxxxxxxxx                       xxxxxxxx, Louisiana
                 xxxxxxxx                         xxxxxxxxx, Indiana
                 xxxxxxxxx                        xxxxxxxxx, Ohio
                 xxxxxxxxxx                       xxxxxxxxx, Pennsylvania
                 xxxxxxxxx                        xxxxxxx, Nevada
                 xxxxxxxxxx                       xxxxxxxx, Ohio
                 xxxxxxxxxx                       xxxxxxxxx, New Hampshire
                 xxxxxxxx                         xxxxxxxx, Hawaii
                 xxxxxxxxxxxxxx                   xxxxxxxxxxxx, Florida




                                                    7
Fiscal Year 2004 Financial Installation Audit –           FF-AR-05-074
 Stamp Distribution Offices


                          APPENDIX B. MANAGEMENT’S COMMENTS




                                                  8
Fiscal Year 2004 Financial Installation Audit –       FF-AR-05-074
 Stamp Distribution Offices




                                                  9
Fiscal Year 2004 Financial Installation Audit –        FF-AR-05-074
 Stamp Distribution Offices




                                                  10
